<html>
<title> - THE ECONOMIC IMPACTS OF THE 2020 CENSUS AND BUSINESS USES OF FEDERAL DATA</title>
<body><pre>[Senate Hearing 116-70]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-70

             THE ECONOMIC IMPACTS OF THE 2020 CENSUS 
             AND BUSINESS USES OF FEDERAL DATA

=======================================================================

                                HEARING

                               BEFORE THE

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

          Printed for the use of the Joint Economic Committee

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-080                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Mike Lee, Utah, Chairman             Carolyn B. Maloney, New York, Vice 
Tom Cotton, Arkansas                     Chair
Ben Sasse, Nebraska                  Donald S. Beyer, Jr., Virginia
Rob Portman, Ohio                    Denny Heck, Washington
Bill Cassidy, M.D., Louisiana        David Trone, Maryland
Ted Cruz, Texas                      Joyce Beatty, Ohio
Martin Heinrich, New Mexico          Lois Frankel, Florida
Amy Klobuchar, Minnesota             David Schweikert, Arizona
Gary C. Peters, Michigan             Darin LaHood, Illinois
Margaret Wood Hassan, New Hampshire  Kenny Marchant, Texas
                                     Jaime Herrera Beutler, Washington

                Scott Winship, Ph.D., Executive Director
                 Harry Gural, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Carolyn B. Maloney, Vice Chair, a U.S. Representative from 
  New York.......................................................     1
Hon. Mike Lee, Chairman, a U.S. Senator from Utah................     3

                               Witnesses

Andrew Reamer, Research Professor, George Washington Institute of 
  Public Policy, George Washington University....................     5
Howard Fienberg, Vice President, Advocacy, Insights Association..     7
Mallory Bateman, Coordinator, State Data Center, Senior Research 
  Analyst, The Kem C. Gardner Policy Institute, The University of 
  Utah...........................................................     9
Nicholas Eberstadt, Henry Wendt Chair in Political Economy, 
  American Enterprise Institute..................................    11

                       Submissions for the Record

Prepared statement of Hon. Carolyn B. Maloney, Vice Chair, a U.S. 
  Representative from New York...................................    28
Prepared statement of Hon. Mike Lee, Chairman, a U.S. Senator 
  from Utah......................................................    29
Prepared statement of Andrew Reamer, Research Professor, George 
  Washington Institute of Public Policy, George Washington 
  University.....................................................    31
Prepared statement of Howard Fienberg, Vice President, Advocacy, 
  Insights Association...........................................    37
Prepared statement of Mallory Bateman, Coordinator, State Data 
  Center, Senior Research Analyst, The Kem C. Gardner Policy 
  Institute, The University of Utah..............................    44
Prepared statement of Nicholas Eberstadt, Henry Wendt Chair in 
  Political Economy, American Enterprise Institute...............    48
Response from Dr. Reamer to Question for the Record Submitted by 
  Senator Klobuchar..............................................    54
Response from Ms. Bateman to Question for the Record Submitted by 
  Senator Klobuchar..............................................    54

 
                    THE ECONOMIC IMPACTS OF THE 2020
                  CENSUS AND BUSINESS USES OF FEDERAL
                                  DATA

                              ----------                              


                        WEDNESDAY, MAY 22, 2019

                     United States Congess,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:07 p.m., in Room 
210, Cannon House Office Building, the Honorable Carolyn B. 
Maloney, Vice Chair, presiding.
    Representatives present: Maloney, Heck, Beyer, Marchant, 
Beatty, Schweikert, LaHood, and Trone.
    Senators present: Lee.
    Staff present: Melanie Ackerman, Dan Burns, Sol Espinoza, 
Natalie George, Harry Gural, Colleen Healy, Christina King, 
Wells King, Vijay Menon, Michael Pearson, Hope Sheils, Kyle 
Treasure, Jim Whitney, Scott Winship, and Randy Woods.

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, VICE CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Vice Chair Maloney. I am going to call the meeting to order 
because I think meetings should start on time, and everybody's 
time is so very valuable. When the Senator gets here, his 
opening statement will be read into the record and we can 
continue, but I can start with my opening statement. And I am 
very pleased to hold this hearing, examining the many economic 
uses of the Census and other Federal data, particularly by U.S. 
businesses.
    Census data is the only source of objective and 
comprehensive data about the Nation's demographic 
characteristics down to the neighborhood level. The decennial 
Census provides the foundation for other Federal surveys, 
including the American Community Survey. The ACS tracks social, 
demographic, economic, and housing data, including educational 
attainment, income and earnings, employment status, and housing 
value.
    Census data are an essential building block, or benchmark, 
for most nationally representative surveys, public and private, 
helping us to understand the economy, our workforce, and 
opportunities for growth. Businesses use Census data to make 
economic and strategic decisions that determine the flow of 
almost $4 trillion in annual private investment. They use it to 
decide where to locate or expand operations, where to open new 
stores and distribution centers, even what products to sell in 
which stores.
    It affects where and how advertisers spend their dollars. 
When businesses plot their strategies, they look at Census data 
to understand the skills of the workforce, and the 
characteristics of potential customers.
    Let's take a few examples. David Kenny, the CEO of Nielsen, 
in a recent New York Times op-ed, described how businesses rely 
on Census data to make a broad range of strategic decisions. 
The Census is used to identify where, for example, to put power 
lines, cell towers, and hospitals.
    Target told us that the U.S. Census is one of many 
resources that it uses to better understand the communities 
where they do businesses.
    In the 7 Rivers region, which includes Southwest Wisconsin, 
Southeast Minnesota, and Northeast Iowa, hundreds of businesses 
and community leaders are using Census-based data to craft 
strategies, to fill jobs, and boost labor-force participation.
    It starts with using data to understand who is unemployed. 
Who has left the labor force? How much education have they 
attained? How do local workers compare to others nationwide? 
Are they younger? Older? More likely to be male or female?
    The strategies that emerged from a careful analysis of the 
data are varied. One approach is to expand childcare, to make 
it more attractive for women with young children to enter the 
labor market. The 7 Rivers Alliance is just one example. Every 
day, companies across the country make decisions based on 
Census data to chart their future.
    The decennial Census is used to apportion representation in 
the United States House of Representatives, and to determine 
allocation of Federal funds. Hundreds of billions of Federal 
dollars and fair political representation are on the table, and 
depend on the Census.
    Where we build roads, bridges, schools, and other core 
infrastructure is based on Federal data. How we target funds to 
address cancer, obesity, and other health challenges depends on 
the Census.
    Unfortunately, the 2020 Census has been politicized through 
the citizenship question. Immigrant communities, already 
skeptical of the Federal Government, are reluctant to take part 
in a survey that they believe could be used against them, 
jeopardizing their status.
    A recent study at Harvard found that the citizenship 
question could lead to 6 million Hispanics missing from the 
count. That means Hispanics would be underrepresented in 
Congress, and would receive less in Federal dollars. It means 
that businesses would not get accurate data about the role 
Latinos play in the U.S. economy. It means the 2020 Census 
would not provide a fair and accurate count.
    The point of the Census is to get a full count of the 
population. Any proposals that would limit or discourage 
participation would run counter to this very objective. This 
would undermine the integrity of the Census data, inflicting 
substantial harm on businesses and others that depend on 
accurate data, and it would undermine the right of every 
American to be represented.
    Now, getting the count wrong would be costly with far-
reaching effects on nearly every segment of the population and 
on nearly every industry in our economy. We would be 
misallocating resources through misguided business investments, 
and poorly targeted government expenditures. We would be using 
flawed data on the basis for making and evaluating decisions, 
and we would be doing this for a decade.
    Accurately counting all of our people should not be a 
partisan issue. Businesses, researchers, policymakers, State 
and local governments, all count on the data that flows from 
the Census. We should all work to make it as accurate as 
possible. I look forward to the witnesses' testimony, and I am 
so pleased to welcome the chair of the committee for his 
opening statement.
    [The prepared statement of Vice Chair Maloney appears in 
the Submissions for the Record on page 28.]

 OPENING STATEMENT OF HON. MIKE LEE, CHAIRMAN, A U.S. SENATOR 
                           FROM UTAH

    Chairman Lee. Thank you very much. It is a pleasure to be 
here, and I appreciate you, Vice Chair Maloney, for putting 
together this hearing on this important topic.
    Today, Federal data and surveys provide the American people 
with a lot of information, including some invaluable 
information about our society and our economy. But there are 
two key categories of information that are currently absent 
from our Federal surveys, categories that I would like to 
highlight a little bit during today's hearing.
    First, our Federal surveys, and in particular, the American 
Community Survey, or ACS, and Current Population Survey, or 
CPS, fail to include information about past involvement with 
the criminal justice system. In other words, they do not tell 
us whether someone has been convicted of a crime, or has been 
put on probation, or on parole, or whether they have been 
incarcerated at some point during their lives.
    Such data would, I believe, be invaluable for understanding 
how much these experiences might serve as a barrier to 
employment. For example, it would help us answer questions like 
how many people are out of the labor force, because they have 
criminal records? And how does this vary in terms of geography 
and in terms of the geographic makeup--the demographic makeup 
of any particular community?
    In our own research on prime-age men who are out of the 
workforce, the JEC's Social Capital Project has found that one-
third of these men have been incarcerated. And there is further 
evidence to suggest that men who are not employed are much more 
likely to have a criminal record than men who are. Indeed, we 
ought to have a fuller picture of this often-forgotten segment 
of our population, and figure out what we might do to help 
them, or what we might be doing to hinder them, what impacts 
our laws might be having on them, that we are not aware of, or 
that we didn't intend.
    Our goal should be to make sure that our criminal justice 
system is, in fact, just that the punishment fits the crime and 
the criminal, being neither too lenient, nor too harsh, and to 
help these men and women reenter society and become productive 
members of their families and of their communities.
    That is precisely why I have worked with many of my 
colleagues on legislation to this end, legislation like the 
First Step Act, which was signed into law by the President 
after being passed by both Houses of Congress in December, and 
which included some much-needed sentencing and prison reforms.
    Having complete data on these topics in our Federal surveys 
would only further assist us in accomplishing these goals, 
these same goals as set out and identified and passed into law 
in the First Step Act.
    Second, our surveys include limited information on social 
capital, and on what we call associational life, which is 
arguably the most important factor in understanding our 
Nation's health and happiness. The Current Population Survey 
includes a few questions on social capital and associational 
life since 2002. But there is still a whole lot of information 
that is lacking, that we don't even seek.
    For instance, it provides little information on trust or 
confidence in our institutions, especially local ones. It does 
not track loneliness, happiness, or the availability of 
emotional support. It does not include information on the 
availability of public amenities, like libraries, parks, and 
playgrounds, which have been shown to have a high correlation 
with things like community involvement.
    The CPS could--and I believe should--provide more 
information on the social integration that takes place between 
families, among friends, neighbors, congregants, and coworkers, 
and it could provide important details on the ways that 
technology hinders and helps social integration and 
interaction.
    Furthermore, having more social capital information in 
these surveys would help all of us, simply because, as research 
shows, strong social capital is conducive to finding and 
getting work. Learning this information would provide some 
missing pieces to a puzzle, giving us a clear picture of ways 
we can strengthen our economy, and help our citizens be happy 
and productive members of their communities.
    So, I look forward to hearing our testimony from these 
witnesses today, and grateful that you would be willing to join 
us. Thank you, Vice Chair.
    [The prepared statement of Chairman Lee appears in the 
Submissions for the Record on page 29.]
    Vice Chair Maloney. Thank you so much, and welcome to all 
of our panelists, and I would like to introduce our 
distinguished panel of witnesses. Dr. Andrew Reamer is a 
Research Professor at the George Washington Institute of Public 
Policy and George Washington University. He was formerly at the 
Brookings Institution. He provided an expert report in the New 
York v. Department of Commerce lawsuit, and has previously 
testified before this committee. Dr. Reamer has 20 years of 
experience as a Consultant in U.S. regional economic 
development. He received a Ph.D. in Economic Development and 
Public Policy, and a master of city planning from MIT, and a 
bachelor of science in economics at the Wharton School, 
University of Pennsylvania. He is a member of several Federal 
advisory committees, including the National Advisory Committee 
on Innovation and Entrepreneurship, and the Workforce 
Information Advisory Council.
    Mr. Howard Fienberg is Vice President of Advocacy at the 
Insights Association. In this role, he lobbies for the 
marketing research and data analytics industry, focusing 
primarily on consumer privacy and data security, the Telephone 
Consumer Protection Act, tort reform, and the funding and 
integrity of the decennial Census and the American Community 
Survey. He is the Co-director of The Census Project, a 500-plus 
member coalition in support of a fair and accurate Census, 
which advocated for uninterrupted funding for the Census during 
the government shutdown. He has led other business groups to 
support funding for the decennial Census. He has an MA in 
international relations from the University of Essex in 
England, and a BA in political science from Trent University in 
Canada.
    Ms. Mallory Bateman is the State Data Center Coordinator 
and a Research Analyst at the Kem C. Gardner Policy Institute 
at the University of Utah. The State Data Center is a 
partnership program between the states and the Census Bureau. 
As Coordinator, Ms. Bateman utilizes her background in 
research, analysis, and public involvement to produce training 
and technical assistance based on data from the Census Bureau 
for the government, researchers, and community members. Prior 
to her time at the institute, she worked as a Research Analyst 
at the Utah Foundation and researched a diverse range of 
topics, including demographics, voting policy, and local roads. 
She earned her BA in urban planning from the University of Utah 
and a master of science in social policy planning from the 
London School of Economics.
    Dr. Nicholas Eberstadt holds the Henry Wendt Chair in 
Political Economy at the American Enterprise Institute, where 
he researches and writes extensively on demographics and 
economic development, and, more specifically, on international 
security in the Korean peninsula and Asia. Domestically, he 
focuses on poverty and social well-being. He is also a Senior 
Advisor to the National Bureau of Asian Research. He has a 
Ph.D. in political economy and government, an MPA from the 
Kennedy School of Government, an AB from Harvard University. In 
addition, he holds a master of science from the London School 
of Economics.
    So I would like to welcome all of you, and I thank you all 
for your testimony, and I look forward to your testimony today 
before us. And let's start with Dr. Reamer and go down the 
line.

    STATEMENT OF ANDREW REAMER, RESEARCH PROFESSOR, GEORGE 
   WASHINGTON INSTITUTE OF PUBLIC POLICY, GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Reamer. Chairman Lee, Vice Chairman Maloney, and 
distinguished members of the Joint Economic Committee, I 
appreciate your invitation to speak today about the economic 
impacts of the 2020 Census and the business uses of Federal 
data. The widespread use of data derived from the decennial 
Census by businesses and nonprofit organizations, workers, and 
students, and Federal, State, and local governments, has a 
substantial positive effect on the vitality of the U.S. economy 
and the Nation's 6 million private firms.
    Data sets from the decennial Census are rarely used 
themselves in economic decisions. They are only gathered once a 
decade, and they only collect a few variables like age, sex, 
and race, but they are essential for economic decision making, 
because the decennial Census provides the foundation for the 
development of three groups of Federal data sets that guide 
public and private economic decision making.
    The first group is the annual population estimates and the 
housing estimates which are essentially updates of the data 
collected in the decennial Census.
    The second group are household surveys, including, as Mr. 
Lee noted, the American Community Survey, the Current 
Population Survey, and the Consumer Expenditure Survey that 
collect data on variables that are not in the decennial Census.
    And the third group are data-derived data sets that are 
geographic classifications, urban and rural classifications, 
and core-based statistical areas, all based on the decennial 
Census.
    The vitality of the Nation's economy and the 6 million 
businesses inside it are greatly affected by decisions made by 
using Census-derived data--by the businesses themselves, by the 
Federal Government, State and local governments, workers, and 
students.
    Businesses depend on Census-derived data to determine 
whether to open a business establishment in a particular 
community, based on market demand and the availability of 
qualified labor, where to site that establishment based on 
transportation and journey-to-work patterns; how large to make 
that establishment in terms of employment and capital 
investment; what goods and services to provide, based on 
population size and characteristics; and once they are in 
business, to measure their market share and market penetration.
    The Federal Government uses Census-derived data that affect 
the U.S. economy and businesses through four avenues: one is, 
as Vice Chair mentioned, the Census and Census-derived data 
determine apportionment and redistricting.
    Secondly, they determine Federal economic indicators such 
as CPI, gross domestic product, unemployment, and poverty 
rates.
    Third, again, as the Vice Chair mentioned, the Federal 
Government uses Census-derived data to annually allocate over 
$900 billion geographically to cities and states across the 
country through 325 Federal spending programs.
    And fourth, multiple agencies like FEMA and government-
sponsored enterprises, like Fannie Mae, use Census-derived data 
to shape policies, programs, and plans that affect businesses.
    State and local governments also use Census-derived data in 
multiple ways that affect businesses. They use data to draw 
legislative boundaries. They rely on these data to determine 
how best to deliver services, where to place schools, highways, 
and health clinics, how to design police patrols, and how to 
respond to natural disasters and other emergencies.
    State governments rely on Census-derived data to project 
revenues and expenditures so they may balance their annual 
budgets. Half of State governments use Census-derived data to 
implement tax and expenditure limitations.
    Also, State agencies use Census-derived data to direct 
federally funded sub grants to local governments, sub grants 
such as Title 1, WIOA, CDBG, and WIC.
    Finally, students and workers use Census-derived data to 
make decisions that affect labor availability to businesses. 
Students choose careers and career pathways based on Census-
derived data, and workers use the data to determine where to 
look for a job, and in which neighborhood to live.
    In sum, economic policy and business decisions depend on 
the accuracy of the 2020 Census. If full accurate responses to 
the Census are not forthcoming, the American economy and its 
businesses will suffer.
    Mr. Chairman, Madam Vice Chair, and committee members, 
thanks for the opportunity to speak, and I am pleased to answer 
any questions you might have.
    [The prepared statement of Dr. Reamer appears in the 
Submissions for the Record on page 31.]
    Vice Chair Maloney. Thank you so much.
    Mr. Fienberg.

    STATEMENT OF HOWARD FIENBERG, VICE PRESIDENT, ADVOCACY, 
                      INSIGHTS ASSOCIATION

    Mr. Fienberg. Chairman Lee, Vice Chair Maloney, and 
committee members, thank you very much for the opportunity to 
testify today about the importance of the 2020 Census to 
American businesses.
    Census data don't just underpin American democracy or guide 
Federal spending, although those are important, but for us, 
they form the backbone of data-driven decision making in the 
private sector. This data helps U.S. businesses promote 
economic development, identify and serve customers, and create 
jobs.
    I am wearing two hats today at this hearing. The first is 
for the Insights Association, nonprofit association 
representing the marketing research and data analytics 
industry. Our members are the world's leading producers of 
intelligence analytics and insights, defining the needs, 
attitudes, and behaviors of consumers, organizations, and their 
employees, students, and citizens.
    And with that essential understanding, a leader can make 
intelligent decisions, and deploy strategies and tactics to 
build trust, inspire innovation, realize the full potential of 
individuals and teams, and successfully create and promote 
products, services and ideas.
    Now, research studies in the U.S. require the most accurate 
decennial data in order to produce statistically representative 
samples of the U.S. population or segments thereof. Even the 
most essential Federal Government surveys like the American 
Community Survey, or ACS, formerly known as the Census Long 
Form, are built on decennial Census data. Without accurate 
Census data, American businesses can't know what America needs.
    My second hat is co-director of The Census Project, a 
broad-based coalition of national, State, and local 
organizations and companies that support an inclusive and 
accurate 2020 Census and ACS, including hundreds of State and 
local government groups, business trade associations, labor 
unions, academia, and civil rights activists.
    While the Census Bureau aims for 100 percent accounting of 
the U.S. population every 10 years, it rarely achieves that 
goal. Hard-to-count populations in areas, such as remote and 
rural areas, racial and ethnic minorities, young children, and 
low-income households, are normally undercounted. But small 
inaccuracies in Census data can have a big impact, especially 
in the business world, which is why Congress must fully fund 
the 2020 Census as soon as possible.
    Now, the Census data explains more than just how many 
people live where. Although that is an important aspect. Many 
companies, whether large multinationals or fledgling small 
businesses, we use the intricacies of Census data to decide 
where, when, or if to site a business, find the right consumer 
base, discover and satisfy consumers' unmet needs and wants, 
identify and locate the best workforce to run their business or 
where the best workforce of the future may be coming from, take 
risks on up-and-coming neighborhoods, and discover locations 
with the right infrastructure and funding behind them.
    On the other side of the coin, economic development 
agencies, like the Greater Houston Partnership, utilize good, 
transparent Census data at the neighborhood level to attract 
and retain business investment from around the world to those 
cities, based on labor data, education levels, and traffic 
patterns.
    Data-driven decisions are even more reliant on accurate 
Census data when they involve smaller, hard-to-count 
demographic groups or areas. Starbucks can easily open another 
coffee shop in Manhattan's financial district, but it takes the 
most accurate, Census-based insights to justify one in rural 
Arkansas.
    Census data cover all American communities down to the 
neighborhood, and Census track levels so that we can accurately 
compare an East Asian immigrant neighborhood in downtown New 
Orleans to a low-income Hispanic suburb of Austin and a mostly 
white, middle-class small town in rural Washington.
    The trickle-down impact of an inaccurate 2020 Census would 
restrain or ruin American businesses for a whole decade. For 
example, Utah-based Qualtrics, an Insights Association member 
providing software to measure and improve the customer 
experience for thousands of brands around the world, would 
struggle to provide those insights with the data--and provide 
the data necessary for those that experience, absent Census 
benchmarks, statistical sampling.
    A utility company would not know where to site new cell 
towers, electric transmission lines, or water lines. So certain 
communities would go without enough coverage, while others 
might end up unnecessarily oversaturated.
    An obstetrics practice might not be opened in an area 
growing dense with young family households if Census data can't 
accurately reflect the neighborhood's demographic trends, 
costing the medical practice profits and the local community 
the benefits of care.
    A business might not invest in a certain neighborhood 
without special tax treatment for requisite concentrations of 
lower, moderate-income households, incentives that would be 
unavailable without accurate Census data to qualify them.
    An Insights Association member conducting public opinion 
polling would not know how representative a survey's results of 
contentious political issues would be of the total population, 
let alone important demographic segments, leaving policymakers 
and stakeholders guessing.
    Insights Association members measuring the U.S. media 
audience and thus setting the rates for advertising, 
publication, and programming across the country would not be 
able to represent the whole audience without accurate Census 
data, leading ad spending and media programming to target the 
wrong areas and demographic segments, miss others entirely, or 
not be produced and delivered at all.
    Finally, retail companies would be unable to conduct 
extensive market analysis needed to accurately determine where, 
what, and when to build, nor be able to accurately forecast 
their sales, delineate trade areas, or manage their supply 
chain.
    The dependence on accurate Census data of American 
businesses, especially the marketing research and data 
analytics industry, drives our advocacy for adequate resources 
for the Census Bureau. We are extremely concerned about 
cancellation of essential 2020 Census field testing in remote 
and rural areas, potential drop in response rate due to the 
addition of a citizenship question, but also the general 
growing distrust in government, and the administration's plan 
to not spend all their available resources appropriated in 
fiscal year 2019, in fiscal year 2019.
    We are also worried about severe impact of a CR or shutdown 
heading into fiscal year 2020, without a funding anomaly for 
the Census Bureau, since playing decennial Census catch-up can 
be very challenging and extremely expensive.
    The Insights Association and Census Project also warned 
against sacrificing the ACS in any scramble for those decennial 
funds. A funding diversion would reduce the sample size, 
preventing the survey from delivering accurate data on more 
than 40 percent of U.S. counties and small towns, mostly rural.
    For now, we are grateful House Appropriations today 
approved $7.5 billion for the 2020 Census, and $8.45 billion 
for the Census Bureau overall, in line with Census 
stakeholders' requests. The Insights Association and Census 
Project urge you to support the maximum amount of Census 
funding to ensure an inclusive and accurate accounting of our 
Nation's population, and to help to determine the fate of 
American business for the next decade and beyond.
    Thank you for inviting my testimony this afternoon. I 
encourage you to peruse my written entertainment for a lot more 
examples, and I look forward to answering questions.
    [The prepared statement of Mr. Fienberg appears in the 
Submissions for the Record on page 37.]
    Vice Chair Maloney. Thank you very much.
    Ms. Bateman.

 STATEMENT OF MALLORY BATEMAN, COORDINATOR, STATE DATA CENTER, 
 SENIOR RESEARCH ANALYST, THE KEM C. GARDNER POLICY INSTITUTE, 
                     THE UNIVERSITY OF UTAH

    Ms. Bateman. Chairman Lee, Vice Chair Maloney, and members 
of the committee, thank you for the opportunity to testify 
today. As mentioned, I work at the Kem C. Gardner Policy 
Institute at the University of Utah, and the Gardner Institute 
develops and shares economic, demographic, and public policy 
research that helps the public and decision makers make 
informed decisions in Utah.
    Also, I am a member of the Census Bureau's State Data 
Center Steering Committee, a member of the Utah Complete Count 
Committee, and chair of the Gardner Institute 2020 Census 
Technical Advisory Committee.
    Utah's unique demographics and thriving economy provide 
insight into how important the 2020 Census and other Federal 
data are to the economic success of the State. In states with 
shifting demographics, decision makers cannot make wise and 
timely decisions to support and build flourishing communities 
without the decennial Census and other Federal data.
    Utah's 3.16 million residents have distinct demographics. 
We are the youngest State with the largest average household 
size, but we are following national trends of aging and 
diversifying racially, ethnically, and culturally.
    Utah's growth has been the fastest in the Nation since 
2010. Our strong job growth and broad industry growth attract 
new people to our State each year. Throughout the decade, 
migration has become a more significant component of our 
population growth, and in the past 5 years, we have added over 
100,000 new residents because of net in-migration.
    Additionally, new communities have emerged since 2010. In 
some areas, this means completely new investments in 
infrastructure, public safety, education, housing, and 
businesses. These areas have no baseline. So the 2020 Census is 
the first opportunity to learn about the population.
    Some of Utah's rural areas have experienced population 
losses since 2010. While data from the American Community 
Survey provides us some insight to these changes, we need the 
100 percent coverage provided by the 2020 Census to more fully 
understand the changing demographics of these communities.
    The 2020 Census and other Federal data are paramount to our 
State, so we can understand the characteristics of new growth. 
Without it, we lack information about these new Utahns.
    The Utah State Data Center regularly handles requests for 
demographic information from the public sector, private 
industry, and citizens seeking to learn more about their 
communities or regions. The data provided help with decisions 
about programming, investments, business location, and future 
planning.
    I have been surprised to meet decision makers who believe 
that decennial data are only used by and for government. I work 
closely with our statewide Complete Count Committee co-chairs 
to maintain a constant narrative that decennial Census data 
provides the baseline for myriad data sets and funding 
calculations across all industries and government.
    If funding calculations utilize a per capita measure or a 
sampling window based on a total population, it is highly 
likely decennial Census data is the denominator. Our director 
of demographic research, Dr. Pamela Perlich, likes to call our 
team the denominator people. Decennial Census data is the 
baseline for the State and county-level estimates and 
projections we produce, and those projections are a direct 
input for education, healthcare, transportation, and 
infrastructure planning efforts, which then turn into a 
significant investment at the State and local level.
    Utahns are recognizing the importance of a complete count 
from the 2020 Census. And community leaders from non-profits, 
community organizations, private industry, banking, and 
municipal government have partnered to urge State decision 
makers to support local outreach efforts this year. They 
emphasize the importance to a diverse array of interests, from 
economic development, to health and safety of Utah residents. 
The State, cities, counties, and the State library are 
discussing various allocations to support a complete count in 
2020.
    The work by Professor Reamer indicates that in fiscal year 
2016, Utah received about $5.7 billion from Census-guided 
funding programs. Calculations by our Utah Governor's Office of 
Management and Budget indicate that this was around 27 percent 
of the State budget in that time frame. These investments will 
pay for themselves quickly.
    We are reliant on a complete count of everyone in our State 
once, only once, and in the right place, to provide us with an 
updated framework once a decade. We want to inform decision 
makers across agencies, organizations, and industries on who 
their constituents and customers are, and plan appropriately in 
regions that may need additional assistance.
    Thank you for holding this hearing, and I look forward to a 
successful 2020 Census.
    [The prepared statement of Ms. Bateman appears in the 
Submissions for the Record on page 44.]
    Vice Chair Maloney. Thank you.
    And Dr. Eberstadt.

STATEMENT OF NICHOLAS EBERSTADT, HENRY WENDT CHAIR IN POLITICAL 
             ECONOMY, AMERICAN ENTERPRISE INSTITUTE

    Dr. Eberstadt. Mr. Chairman, Madam Vice Chair, members of 
the committee, distinguished co-panelists and guests, America's 
statistical agencies are the eyes and ears of our democracy. 
Whether you are a progressive, or a conservative, in favor of 
more government or less, you need good data to inform your 
efforts to make our country better.
    For most of our history, the U.S. statistical system has 
been well ahead of the curve, if not a virtual wonder of the 
world. Recently, though, our Federal information systems have 
not fully kept up with the social and economic changes they 
should be helping us monitor. They are currently incapable of 
providing key facts and figures we need for confronting some of 
our new and pressing domestic social troubles. In my book, 
``Men Without Work: America's Invisible Crisis,'' I tried to 
highlight the collapse of work for grown men in our country, in 
recent decades.
    Although the employment situation for working-age U.S. men 
has been slowly improving, the latest BLS figures indicate that 
their employment rates are still just on par with the levels of 
1939, as reported in 1940 Census, which is to say, we still 
have a Depression-scale problem on our hands.
    Our failure to cope more expeditiously with this problem 
may be partly related to the inadequacies of our statistical 
services to illuminate important dimensions of it. I 
highlighted a number of shortcomings and gaps in official 
information in that book I mentioned.
    Today, I wish to speak about just one of those gaps, but it 
is an enormous blind spot, and given the realities of life in 
our country today, a critical and inexplicable one. I refer to 
the virtual absence in our Nation's statistical compendia of 
facts and figures about America's arrested and sentenced 
populations. These are large and growing populations, yet our 
government statistical systems can tell us almost nothing about 
them.
    The explosive surge in both arrests and felony sentencing 
in modern America is a fact of life. In 2016, 91 million 
Americans were included in the Interstate Identification Index, 
the database the FBI uses to determine whether someone has a 
criminal record. That is two-fifths of the adult population.
    What do we know about this huge contingent of people? 
Almost nothing. Age, sex, ethnicity, living arrangements, 
family situation, income, educational profile, health status, 
and all the rest of the data the Federal Government collects on 
our population are not cross-referenced here.
    And the situation is even worse concerning the American 
felon population. It is not just that the government provides 
no information on the social, economic, or health conditions of 
these men and women. Astonishing as this may sound, the 
statistical system does not even offer an estimate for the 
total size of the population of Americans who have a felony 
conviction in their background.
    Academic researchers have attempted a demographic 
reconstruction, though. According to their estimates, this 
convicted population shot up from under 2 million persons in 
1948, to nearly 20 million in 2010. By those numbers, roughly 
one in 12 American adults had a felony conviction in 2010, one 
in eight adult men. That was 2010. Rough calculations suggest 
the total population with a felony conviction in America today 
might equal or exceed 24 million.
    We hear a lot about mass incarceration. Over 2 million 
persons in America are in correctional facilities today. 
Usually missing from the conversation about mass incarceration, 
however, is any recognition that these imprisoned Americans may 
represent less than one-tenth of the total population of felony 
convicts.
    Today, 20 million or more Americans not behind bars may 
have a felony conviction in their past. This immense population 
is effectively, statistically invisible. The Census Bureau, the 
Bureau of Labor Statistics, the Centers for Disease Control, 
none can tell us practically anything about conditions of life 
for these tens of millions of Americans in our society.
    Needless to say, evidence-based policies to help 
reintegrate ex-cons and ex-felons back into the labor force and 
into families and into societies require evidence in the first 
place.
    We have a chance to end this statistical darkness. 
Including just one or two questions on criminal justice system 
history in the ACS could end this statistical darkness, and 
linked administrative data offer another avenue for redressing 
this darkness, with much greater speed and at far lower cost.
    For obvious reasons, approaches to reentry and 
rehabilitation today remain largely anecdotal. It is past time 
to take the steps necessary to begin wresting our approaches to 
public policy in this realm on facts.
    Thank you, Madam Vice Chair and Chairman. I would like 
also, if I could, to add some additional materials to the 
record with your permission.
    Vice Chair Maloney. Absolutely.
    [The prepared statement of Dr. Eberstadt appears in the 
Submissions for the Record on page 48.]
    Thank you all for your testimony, and we appreciate your 
research and all your work in the area.
    I would like to ask Mr. Fienberg about the addition of the 
citizenship question to the Census, and the effect that this 
will have on the accuracy of the data. We heard from all of you 
the importance of having accurate data, but we had a case 
recently that went all the way to the Supreme Court. Judge 
Furman in New York ruled that the addition was frivolous, and a 
tremendous mistake, and would lead to an undercount. Six former 
heads of the Census Bureau, both Republican and Democratic, 
signed letters and spoke out that adding the citizenship 
question would result in an undercount.
    And we know how much businesses depend on this. The 
professionals at the Census Bureau also came out and spoke out 
against adding this question and said that it would result in 
an inaccurate count, inaccurate data, for the Census--for the 
2020 Census. And in preparing for this, we spoke to Maurine 
Haver, a constituent of mine, who is President and CEO of Haver 
Analytics. Haver is the premier provider of time series data 
for the global strategy and research community and maintains 
over 200-plus databases from over 1,000 government and private 
sources that rely on Census data. She is concerned the 
citizenship question may reduce the quality of the Census data. 
Reams of professionals have joined her in this decision. And, 
Mr. Fienberg, do you and the businesses you have worked with 
share her concerns about the data accuracy of the 2020 Census?
    Mr. Fienberg. I do. I should say, I am commenting in the 
capacity with the Insights Association hat on, rather than--the 
Census Project doesn't have a position on the citizenship 
question. The Insights Association does. We joined an amicus 
brief with a lot of other businesses to the Supreme Court case 
on this issue. And we do have a great concern.
    I can't tell you with any great certainty what the impact 
will be on a numbers basis. I don't think we have good enough 
data to be able to say, and that is part of the problem that we 
have going into this. But there is enough data to be able to, 
you know, justify that--expect there will be a significant drop 
in the self-response rate for the decennial, which is the 
people actually responding without us spending a significant 
amount of time and money to get them to respond.
    So even that alone, you can expect a significant increase 
in, you know, the amount of money that is going to have to go 
towards nonresponse follow-up, which is the going door to door 
to get people to respond. And even if we are able to get the 
100 percent accuracy at that point, you know, that would still 
cost us an absolute fortune in nonresponse follow-up.
    But I don't think we are going to be able to achieve that, 
because there will be some people that will still be deterred 
from responding, based on the concerns about the citizenship 
question. That will trickle down into the data. Just as an 
example, I cited for the media measurement among my members to 
be able to accurately measure the audience for advertising and 
programming among the Asian immigrants, or the Hispanic 
population, is going to drive advertising rates all over the 
map, and it is going to make everyone's spending in this area 
much less accurate, and there will be a lot of wasted 
resources.
    Vice Chair Maloney. There are also--people feel that there 
will be an undercount based on the political climate of fear, 
and that possibly that has increased the likelihood of an 
undercount. Dr. Reamer, I would like to ask you about that. In 
fact, there was a hearing yesterday with the Secretary of HUD, 
and he said that their policy would be to deport anyone in 
public housing and remove them from public housing if they were 
undocumented. Yet their children are citizens. As you know, if 
you have a child in America, they are considered an American 
citizen.
    So we could be facing a situation where parents could be 
leaving the country, but the children are staying here, and how 
are we going to take care of these children, with the 
separation of the families? So when you read about this type of 
crackdown, it might have the effect on people of not wanting to 
answer the citizenship question, therefore, not responding to 
the Census.
    Do you think the climate for the 2020 decennial Census, 
which many have characterized as a climate of fear and 
uncertainty, presents a greater risk that we may see an 
undercount in 2020, and how do you think that would affect 
American businesses? And from all of your testimony, you cited 
the extent to which American businesses and the private sector 
rely on the Census data.
    Dr. Reamer. The Census Bureau's own research shows that 
there is a climate of fear. They have held focus groups where 
people run out of the room when they are asked the citizenship 
question. The heart of the Census research that was used in the 
citizenship case, that both the plaintiffs and the defendants 
used, was the Census Bureau's estimate that the nonresponse 
rate for households with noncitizens would be 5.8 percent less 
than the response for households with citizens. The 
implications of that are that a lot of people would be missed. 
As Howard says, there is nonresponse follow-up. Maybe in 2010, 
65 percent of the people mailed back their form. This time they 
will have----
    Vice Chair Maloney. So that would be around 6 million 
people, the 5.8?
    Dr. Reamer. Yes.
    Vice Chair Maloney. That is a lot.
    Dr. Reamer. And the Census Bureau then has to find these 
people, and it doesn't always succeed. It either finds them and 
get the information, or it doesn't find them. If it knows they 
are there, it imputes what it thinks the characteristics are, 
which may be wrong. So Howard's members may be--say, well, 
there is this many Hispanics in this community, but, in fact, 
it is 10 percent less or 10 percent more.
    And also, the Census Bureau misses people that they don't 
even know they miss. So----
    Vice Chair Maloney. Regretfully, my time is up.
    And so I now recognize the Chairman, Mr. Lee, for his 5 
minutes or 6 minutes because I went over.
    Chairman Lee. Thank you very much, Vice Chair Maloney.
    Ms. Bateman, I would like to start with you, if we could. 
As I mentioned in my opening statement, the Census Bureau is 
really good at collecting a lot of information, but none of the 
Census Bureau surveys that I am aware of has any measures for 
things like loneliness, happiness, the availability of sources 
of emotional support, nor do they, to my knowledge, have any 
information on the availability of public amenities, access to 
public parks, playgrounds, libraries, and so forth. And those 
are things that are often at least associated with high levels 
of community involvement.
    First, do you believe that the addition of survey questions 
addressing some of these topics could help researchers better 
understand the health of civil society?
    Ms. Bateman. They could provide insight, as long as people 
understand the concepts. I think there would have to be some 
explanation of what you are looking for. And I know that this 
is a topic that is coming up all over the globe. So you could 
probably find existing formats and surveys that could help 
provide guidance, but it would be an interesting thing to look 
into.
    Chairman Lee. It certainly--even though it is difficult to 
measure, it is certainly not impossible to measure, right? 
There are ways you could devise questions that could at least 
allow us to get access to some of this information?
    Ms. Bateman. Other countries are definitely looking into 
this.
    Chairman Lee. Are there any other topics that you would 
suggest trying to address in order to assess the health of our 
civil institutions or the health of civil society?
    Ms. Bateman. That is a big question. I think if you could 
have a survey that people felt safe--and they trusted the 
institution in the first place--to respond, you could 
extrapolate and add more questions, touching on that type of 
topic, but it would require trust----
    Chairman Lee. Sure.
    Ms. Bateman [continuing]. In the institution.
    Chairman Lee. Yeah, sure. They have got to have trust in 
the institution. If they don't trust, then you are not going to 
get as much of a response. But high response rates alone, if 
you are not asking the right data, won't give you that.
    It gives me some comfort to know that in other parts of the 
world, they track such information. So we know it is not 
impossible. We also know that it is desirable, and that there 
are good things that could come from it. Sometimes we fail 
adequately to appreciate the impact our laws might have on 
relationships, on the--what brings people together as families, 
as neighborhoods, as communities, as fellow congregants and so 
forth.
    Mr. Eberstadt, I would like to ask you a couple questions 
if I could. We found a limited number of relevant survey 
questions that deal with social capital. As we have undertaken 
the Social Capital Project through the Joint Economic 
Committee, we have looked high and low for this. We haven't 
found a whole lot of it. And I think much of your work touches 
on things that are related to this--the web of relationships 
that connect people together. We have, at the family level, at 
the community level, represent really, I think, what are 
people's best chances of succeeding in life, especially their 
best chances of thriving.
    What, if anything, would you recommend to be added to the 
Census Bureau surveys in order to give us a more accurate and 
fulsome view of associational life in America?
    Dr. Eberstadt. Senator, first and foremost, a salute to you 
and your committee for investigating this important question of 
social capital. I think your team has done great work, very 
promising work so far. I can mention one item in particular, 
which I believe you are currently prohibited from inquiring 
about, and this is the religious adherence, or religious 
devotion of American citizens. Since 1976, the Census Bureau 
has been prohibited from asking such questions. And that has 
been taken, I think, broadly, as best practice, by all other 
statistical organizations.
    Since secular approaches and religiosity seem to have some 
bearing on social capital, this would, I think, be a 
reasonable, and maybe a very interesting question to include.
    Chairman Lee. Thank you. Along with that, what do you think 
we ought to be asking about in terms of people's criminal 
records? The fact that, as much of your research indicates, 
there is a high connection between someone's criminal 
background, whether they have been on probation, parole, 
supervised release, or served time in prison, or all of the 
above, should we be asking more about that, and what could that 
tell us?
    Dr. Eberstadt. Sir, I think the most expeditious and 
inexpensive way of casting light in this area would be to link 
up existing administrative data with something like the Current 
Population Survey, the monthly job report data. This could be 
done by the Census Bureau and other statistical U.S. 
authorities, paying attention to confidentiality and privacy of 
the individuals in question.
    This would be able to show, at least for a start, what 
sorts of patterns we see in the sentenced population currently 
on probation or on parole, with respect to employment, income, 
family situation, and the CPS questions. It would probably take 
about 3 weeks to get information on those 5- or 6 million 
persons.
    Questions for the ACS, I think, would have to be tested 
very carefully and prepared very carefully, since this is such 
a sensitive and personal area of life, but if they could be 
adequately tested and rolled out, I think this would help to 
illuminate this darkness I was describing.
    Chairman Lee. Thank you. That is very helpful.
    Thank you, Vice Chair Maloney.
    Vice Chair Maloney. Thank you so much.
    And Representative Heck.
    Representative Heck. Thank you, Madam Vice Chair.
    Dr. Reamer, listening with interest to a lot of the 
provocative dialogue here about adding additional questions for 
deeper information, but I want to step back and make sure I 
have this thing in correct perspective. As I read the 
Constitution, as I understand it, is not the first and foremost 
objective of the Census to get an accurate count on the number 
of noses in America?
    Dr. Reamer. Yes.
    Representative Heck. Thank you. I have been doing a--well, 
and anything that would detract from that would, therefore----
    Dr. Reamer. Yes. And if I could insert--and I am happy to 
talk to members and staff afterwards--I have a bunch of ideas 
for how to collect social capital and the population 
characteristics that would not involve adding questions to the 
Census.
    Representative Heck. So I have been doing a fairly deep 
dive in the last few years on the issue of the crisis of 
soaring housing prices and the shortage of houses, housing 
units available in America. We have compiled, through our task 
force, a report called ``Missing Millions of Homes.'' And for 
our conclusion that we are missing millions of homes, we 
utilized a lot of Census data, housing vacancy survey, rental 
vacancy rate, home ownership rate, a joint HUD/Census effort on 
American Housing Survey, a building permit survey done by 
Census, and I could go on and on.
    I think, Mr. Fienberg, I want to direct this to you. We 
know that we are millions of homes short based on this data. 
But here is what we also know, which is that over the course of 
the last decade, there has been fairly flat funding for our 
efforts to collect this kind of data. I am asking you this 
because you made such a point of the importance to have robust 
funding for a totally accurate count.
    And I guess I want to ask you, as it relates to certain 
public policy challenges and social problems, like the lack of 
housing units available, to what degree, even if you could 
describe this qualitatively, is our ability to understand these 
challenges, hampered by a shortage of funding and complete 
accuracy?
    Mr. Fienberg. I don't know how much funding is necessary 
for 100 percent accuracy. I wish I did. That would be great to 
be able to tell you exactly----
    Representative Heck. Are we there?
    Mr. Fienberg. No. I think we are--part of the problem is 
that Congress has to deal with a 10-year budget window for the 
decennial Census, and it is very difficult for Congress to deal 
with that 10-year window when you are going year to year, and 
the Census Bureau starts out at the beginning of a decennial 
cycle at very little money, and then suddenly the last couple 
of years is spending in many billions of dollars and required 
to pull it off.
    Representative Heck. Well, would you--Mr. Fienberg, would 
you say that our ability to deal with these problems is, in 
some fashion, affected, if not curtailed, by an absence of 
having as accurate data as is reasonably possible?
    Mr. Fienberg. Absolutely.
    Representative Heck. And this would include housing?
    Mr. Fienberg. Oh, definitely, yes. In fact, I would guide 
you towards a letter--a letter I referenced from the National 
Association of Realtors on how they use housing data to try to 
keep on top of the need for housing and the housing markets. 
And there is also extensive work done by the National 
Association of Home Builders using Census data in trying to, 
again, impute into where housing is and where it should be.
    Representative Heck. Ergo, the need to provide adequate 
funding.
    Mr. Fienberg. Absolutely.
    Representative Heck. So I want to shift to another--kind of 
parallel subject. One of the most fundamental and essential 
mandates that we have set for ourselves, I think, would be to 
maintain an economy and a state of maximum employment. And as a 
matter of fact, that is a statutory mandate of the Federal 
Reserve, price stability and full employment. Yet we can't seem 
to define ``full employment'' in statistical terms, or if we 
can, we can't measure it. I know this because we are currently 
at 3.6 percent unemployment, and the Fed has said full 
employment is 4.3 percent unemployment.
    And, obviously, we are well past their definition of full 
employment, and yet--unless somebody informs me otherwise--the 
Phillips curve has been repealed, we still are seeing modest 
wage growth, and we are still adding 150- to 250,000 jobs a 
month. So we are clearly not at full employment.
    I am trying to sort out, is that because we are so far past 
the beginning of the decade that our data is fading, the 
accuracy of it? Is it because we haven't had adequate funding? 
But clearly, there is a disconnect here. You are looking at one 
another, like, not me, not me. Ms. Bateman, you, what accounts 
for this? Why is it that we are so far past the full employment 
data, or target that they have set, and yet we are adding 
jobs--Dr. Reamer has an answer. Thank you, sir.
    Dr. Reamer. I don't know if it is an answer. I don't think 
it is a problem with the data. I think labor force 
participation rates are low historically. So what is happening 
is that additional people are joining the labor force. I think 
it is a question about, why is it that unemployment is so low, 
and yet inflation has not taken off. And jobs are added----
    Representative Heck. You are saying the Philips curve has 
been repealed?
    Dr. Reamer. Well, it may have been amended in----
    Representative Heck. God wrote the Phillips curve, Dr. 
Reamer.
    Dr. Reamer. So I think it is--it is a research question 
that it is--it is not an issue with the age of the data. It is 
an issue with the dynamics of the workforce, and back to 
adequate funding, the Bureau of Labor Statistics is dying for 
adequate funding. They have been flatlined by Congress for the 
last 10 years. So their budget is 15 to 20 percent below what 
it was in 2010.
    Representative Heck. I think you have made my point.
    I am out of time. I yield back.
    Vice Chair Maloney. Thank you.
    Representative Schweikert.
    Representative Schweikert. Thank you, Madam Vice Chair.
    Actually, to Mr. Heck, my understanding, is there an entire 
group--of Ph.D. economists--and demographers over at the Fed 
actually working on Phillips curve? Do you have to actually add 
in a conceptual shock absorber for potential labor force 
participation that we had sort of written out? You know, 
companies now being willing to hire felons, others, but also 
impacts of technology, changing productivity and other things. 
So there is always noise in the data.
    I have a dozen things here, and I want to disclose in a 
previous life, I lived in TIGER files.
    For those of us from Utah, Texas, Arizona, where we have 
quickly growing, substantial population movements and shifts, I 
understand the 10-year Census with as many questions as 
possible for businesses and economic decision making. But for 
communities like mine, we look dramatically different than we 
did 10 years ago, if every day I am getting 3, 400 new 
residents in my State. If we do the 10-year Census, is there an 
elegant way to start doing what a lot of my businesses, my 
universities, even my State government is trying to look at, 
and that is ways to almost crowd-source much more living data?
    And if that makes sense, you know, how do we look at every 
day, how many building permits, birth rates, deaths, everything 
else? But you also actually even start to look into how many 
gallons of fuel sold, how many this, how many that. Are we 
basically still living in a data-design model that is decades 
out of date? And you think about all--everything from social 
indicators, of how many people signed up for SNAP this week, to 
how many people we believe, you know, picked up a job, or this 
and that. There has got to be a way that, when I am looking at, 
you know, my community, I am not looking at data that is 10 
years old.
    And, I mean, we are living in a time where we are walking 
around with super computers. I am frustrated, and somewhere in 
here, there may actually be--and forgive my heresy--a data-
modeling opportunity between government, university, Census, 
business, to build us a model.
    And why this is so important is, what I want to know is 
what I am seeing in the TIGER files--excuse me--in the U6 data 
real? Am I really seeing those with personal issues moving into 
the labor force? Am I really seeing millennial women moving in, 
but not millennial males? And is that living data the type of 
thing we could also be, as we are doing policy every day, be 
reacting to? In some ways--I know I don't have a classic 
demographer on the panel, but let's do a little bouncing. Being 
from sort of the university mechanism, is what I am speaking 
heresy?
    Ms. Bateman. I don't know that it is heresy, but our team 
would advocate to look to your research universities. Our team 
produces an annual update to estimates and population 
projections and also looks at housing units in the State. We 
have a database where all the local cities report their 
building permits to our database. So we have these ongoing 
partnerships with the community to keep an up-to-date data set.
    Representative Schweikert. Okay. Dr. Eberstadt.
    Dr. Eberstadt. Sir, what you say is music to my ears. I 
love to hear that.
    Representative Schweikert. I am the least musical person 
you are ever going to meet.
    Dr. Eberstadt. Well, let me give it a try.
    Representative Schweikert. And I actually have read your 
books.
    Dr. Eberstadt. Big data, linked administrative data, and 
other Census data which are indispensable, all wonderful 
opportunities. With respect to U6 and to the Phillips curve, 
the Humphrey-Hawkins Act was written at a time when working age 
men were either----
    Representative Schweikert. I think of us not going there. I 
know exactly where you are going, and actually, I am not a big 
data person. I am more of a--I have now moved to crowd source 
data. I actually believe big data gets old very fast. Living 
data is more useful.
    Dr. Reamer.
    Dr. Reamer. Right. Three points. One is the Census Bureau 
produces annual population estimates that are very good. If the 
Census is accurate, the bulk of the update annual is based on 
records, births, deaths and tax forms where people move from 
one year to another. So in terms of the actual head count, it 
is pretty good.
    I think what would be helpful is, one, getting a contingent 
work supplement on the CPS so you understand that aspect of the 
workforce.
    And secondly, Vice Chair Maloney mentioned Maurine Haver. 
She and I are working to create the third annual conference 
that brings together statistical agencies with Amazon and Uber.
    Representative Schweikert. Something like that I would love 
for--please forgive me, Vice Chair Maloney. Just one quick.
    Being someone who also spent a bunch of time bathing in the 
community survey, I actually have to disagree with you on just 
something. I think I actually distrust the government. There is 
some academic research out there that that was a bigger 
fragility in return rates than citizenship or all the other 
things that were being sort of discussed and tested.
    So we may actually--I know one is a political hot potato 
and fits the, you know, us against them. We may actually have a 
whole cultural thing we have to work through because that was 
one of the real problems on the community survey, research.
    So with that, I yield back.
    Vice Chair Maloney. Thank you. And we have been joined by 
Representative Beyer from Virginia.
    Thank you for being here.
    Representative Beyer. This is my first time in this room 
finding the button. Thank you very much for being here.
    First, Dr. Reamer, my daughter just graduated with her MPA 
from G.W. Friday morning.
    Dr. Reamer. Congratulations.
    Representative Beyer. Thank you. Thank you. She seems 
thrilled to have it. Now all she needs is a job, and things 
will be good.
    Dr. Reamer. My mother graduated from the University of 
Washington.
    Representative Beyer. Wow. The one degree of separation.
    And I really want to thank you all for talking to us about 
the business uses of the Census data. When I opened a Land 
Rover dealership 22 years ago, we went months without selling a 
Range Rover until I turned to the Census data and figured out 
where our customers lived, where our potential customers lived, 
and all of a sudden, it worked out really well. And the biggest 
concern that we have in my district right now, throughout 
Northern Virginia, is the fear of undercounting.
    And so we obviously have a sadly divisive political 
climate. The meeting at the White House this morning is the 
latest example. Has that dampened business' willingness to 
advocate for the Census and participate in Census research and 
all the controversy over, you know, for example, the 
citizenship question? Or just the----
    Vice Chair Maloney. Will the gentleman yield for 2 seconds?
    Representative Beyer. Yes.
    Vice Chair Maloney. You are raising a really important 
point. We had difficulty getting business representatives to 
come which we have never had before. We had the Chamber of 
Commerce in prior years.
    Nielsen wrote a big report, and yet they said they didn't 
want to come because of the divisions and the fight over the 
citizenship question and the divisions between Congress. So 
that is a very important point that you raise.
    Thank you for raising it.
    Representative Beyer. From the positions that you have, 
have you seen any reluctance on the part of businesses to be 
part of this?
    Mr. Fienberg. I have. Sorry. Certainly we are used to a lot 
greater participation from the business community and advocacy 
for the Census. In the case that I am not--things I am not 
directly involved in, but in the preparation for the decennial, 
businesses play a huge role in helping to get out the count, 
getting people involved, making sure that both people, 
companies' employees and their customers are going to be 
getting out know that the decennial Census is coming, making 
sure that they are going to self respond.
    It is hugely important. A lot of them are not getting 
involved this time around. A lot of them have a little bit 
hesitancy, showing hesitancy in getting involved in 
presentation and advocacy, you know, on all sides because of 
the citizenship question. And that is not a specific thing 
saying that they are opposed to the citizenship question. I 
think the average business--and most businesses don't have a 
position on it one way or the other. They are risk averse and 
don't want to be involved in a political controversy, period.
    So yeah. There are some companies that will care deeply 
about it because of the impact on the data that they are going 
to rely on, but most are more concerned about being involved in 
the political controversy and being seen as taking a side on a 
political issue.
    Representative Beyer. So, I don't know if this is Ms. 
Bateman or Mr. Fienberg, I know you have been pressing for full 
funding of the Census, but one of the things that has concerned 
me is the dramatic reduction in the number of people that are 
intended to be hired from the 2010 Census, and I know that what 
I read is that supposedly the technology is so much better that 
we don't need to have all those people working the streets.
    But do you have concerns that there aren't going to be 
enough human beings knocking on doors for the people that 
didn't mail it in or go online?
    Ms. Bateman.
    Ms. Bateman. Yes. I know, especially in Utah, we do have 
very low unemployment, and that wasn't the case in 2010. And so 
specifically in our case, I know that our partnership 
specialists and partnership team is trying to start very early 
to try to get people on board and trying to reach out to 
different groups than they had in the past, trying to figure 
out jobs where people might have more flexible hours that they 
could find--the opportunity for a second job would be 
appealing. But I know that our low unemployment in Utah is 
definitely a concern.
    Mr. Fienberg. And if I recall correctly, there was supposed 
to be--according to the Census bureau, they were going to be 
aiming for 1,500 partnerships staff that they are going to be 
sending out in the field. According to the GAO, they are not 
likely to hit that this year in terms of their hiring. You need 
to hire them now.
    And admittedly, in 2010, I believe they were closer to 
4,000 partnership staff, and it is a huge deal in a very large 
country, especially as you move west in the country when going 
door to door and making contact with people in remote areas is 
extremely complicated.
    And again, in a condition where the government is not 
trusted, you need to have people out in the field setting up 
relationships with the local church, with local community 
groups, with local trusted entities to make sure that there is 
someone other than just the government knocking on the door 
saying they are there to help.
    Representative Beyer. Dr. Reamer, I only have a couple of 
seconds left, but I am fascinated by not just big data but by 
the progress we made on machine learning and deep analytics. 
Will this Census be able to be used in very different, more 
important ways because of that evolution?
    Dr. Reamer. I think so. Both coming in and going out, 
right, that kind of machine learning and high tech computing 
will be used to produce a more accurate Census. And then going 
out, the capacity to match for the Census Bureau, to get 
administrative records, to get private sector records, match 
them up with Census records and do modeling, I think, is a new 
frontier for us.
    Representative Beyer. Thank you very much.
    Madam Chair, I yield back.
    Vice Chair Maloney. Thank you very much.
    Representative Marchant. Thank you.
    Representative Marchant. Thank you, Madam Chair.
    I am from a very high growth district and State and from a 
background of being a mayor and in the State legislature, so we 
have depended on the Census Bureau giving us more frequent 
updates than every 10 years. So that data we rely on much more 
than we do the every 10-year data except for the 
reproportionment of our Congressional seats and then the 
funding issue.
    My question to you is after all of the public policy is 
taken into consideration and the Census is actually done, and 
you go through this very delicate process at the end of the 
Census where you have this undercount adjustment that takes 
place, and I would like to know your opinion of how much the 
undercount adjustment actually erodes some of the information 
that is in the report itself.
    And if you have a citizenship question which we are 
concerned about in Texas as well because we want every nose 
counted, period, because so much of our funding for our cities 
and counties, school districts depends on it, and of course, 
the number of seats we have in Congress depends on it.
    Will there be an adjustment to the Census, in your opinion, 
based on a question that they think or the general opinion is 
that there is a possibility that this question could suppress 
the number. Will there been an adjustment for the undercount 
for the undercount, or will there just be a general 
readjustment of the definition of undercount?
    And I know that is a really--a question that doesn't get 
asked very often, but I think that this may be the first time 
in many, many decades that the undercount may be one of the 
most political things that happens as a result of this Census. 
You can take a stab at it.
    Dr. Reamer. Congressman, my understanding is that there is 
no adjustment. So whatever the count is, that is the count, and 
that was a Supreme Court ruling of 20 years ago. Because in the 
1990s, the Clinton administration proposed to adjust because in 
1990, 5 out of 100 African Americans and 5 out of 100 Hispanics 
were missed, so that was the proposal. And the Supreme Court 
ruled no, you have to use the actual count, so there is no 
adjustment of the count. The count is the count.
    Representative Marchant. Yes.
    Dr. Reamer. But after the count is what is called a post 
enumeration survey----
    Representative Marchant. Yeah.
    Dr. Reamer [continuing]. Which tries to measure Census 
coverage. In other words, Census goes back the year after it 
went into the field and said how well did we do? And so you can 
go online. I am happy to you give you the web address. For the 
Nation, for every State, for every county above 100,000 or 
200,000 people, there is an estimate of Census coverage 
measurement.
    How many people were accurately counted? There are a lot of 
duplications, 3 out of 100 people are counted twice. Three out 
of 100 people are missed. So they cancel each other out. There 
is a one-page CCM chart for the counties in the Dallas area, or 
wherever, for that.
    And the same thing will happen in 2020, so people can look 
and see how well did the Census Bureau do? There is a breakout 
for the Nation by race, ethnicity, age. So they do a 
retrospective analysis, but the count itself is not adjusted.
    Representative Marchant. But in the State legislatures and 
their process of redistricting those States that have that 
process, they wait for that information to come out many times 
to seriously get down to the actual drawing.
    And so my question is, to reiterate, Texas, the fast 
growing States, want the most accurate Census. They want every 
nose counted. I know that Utah does and Texas does. So I am 
interested in that policy question.
    I am also interested in Mr. Eberstadt's point about felons. 
Now, your definition is not felon. Your definition is someone 
that has experience with the criminal justice system.
    Dr. Eberstadt. Yes, sir. I referred to two separate 
populations. One was in the III, people who have a criminal 
record that can be accessed through the FBI or through police 
authorities. That is one group.
    The second group is people who at some point in their life 
history have been convicted of a felony, of a serious crime, 
punishable by a year or more in prison.
    Representative Marchant. I am over my time, but do you 
think there is a possibility that if a question is put on there 
that is not asked properly, it could actually have an effect on 
who is willing to respond?
    Dr. Eberstadt. Yes, sir. Absolutely. It has to be.
    Representative Marchant. Yeah. Thank you.
    Vice Chair Maloney. Congresswoman Beatty.
    Representative Beatty. Thank you, Ranking Member, and thank 
my colleague over there. It was a perfect segue for me to not 
just ask you, Dr. Eberstadt, but the rest of the panel. I want 
to take special note to--I would be very interested in your 
testimony and to emphasize for the record that some of the 
information presented in your written testimony, especially the 
chart we have, indicated that black men who are out of the 
labor workforce at a higher rate than their counterparts, even 
though maybe they had a lower interaction with the criminal 
justice center may be where my colleague was going, but you 
were very specific here. I suggest that this might also be an 
economic issue worthy of a fuller examination beyond the Census 
for this body to take a look at since we are talking about 
economic development.
    But I would like to focus more on your position that we 
need more information about persons with a criminal history. So 
I would like to pose the question to the entire panel. Do you 
have concerns that the inclusion of a question about a person's 
possible criminal history might affect, one, participation of 
the Census, or the accuracy of the data?
    Dr. Eberstadt. Ma'am, it is a critical question, and it is 
a very sensitive question that one would be asking people. It 
would have to be tested very carefully. It would have to be 
rolled out in a very careful way so as to ensure that this did 
not adversely affect participation in the ACS or in other 
surveys where it might be asked.
    We have a way of test piloting this investigation that 
wouldn't have any effect on nonresponse rates, and that would 
be by linking up existing administrative data on probation and 
parole, with proper privacy and confidentiality controls, to 
the existing data coming out of our monthly jobs report, out of 
our current population survey.
    That way all of the data would come from administrative 
sources already, and it would be possible to get a sense of how 
much of an impact sentencing has.
    Representative Beatty. Would anybody else like to make a 
comment, and maybe while you are thinking, I want to go to you, 
Mr.--is it Finberg?
    Mr. Fienberg. Fienberg.
    Representative Beatty. Fienberg. Research shows us that 
asking stigmatizing and sensitive questions such as citizenship 
status might lead us to reduced rates of some community wanting 
to fully and fairly and accurately be counted in a Census. So I 
am concerned about the unprecedented politicizing of the 2020 
citizen Census if such citizenship questions are the first step 
down a very troubling path.
    Like, how would it affect the integrity of the Census and 
the Federal statistics based on the Census if we were to ask 
questions that residents might not want to answer fully or may 
be fearful that responding, for example, have you ever been a 
victim of domestic violence? Have you ever been incarcerated? 
How would that effect a business participation in the Census, 
and that is you and then anyone else quickly because we only 
have a minute.
    Mr. Fienberg. I am not sure about business participation 
specifically. I know certainly a lot of different questions 
they do carry a stigma and concern for folks. I think the idea 
of putting, I think, those kind of questions on the decennial 
is questionable at best because are you trying to focus just on 
the head count. But certainly those questions are asked across 
a lot of Federal surveys. And to Dr. Eberstadt's point, 
administrative data is a very good way to start in trying to 
get a better picture on a lot of those topics.
    Representative Beatty. Well, and let me tell you why I say 
not only businesses. You know the reasons that the Census are 
used. It was articulated before. It is for the reapportionment 
board in drawing the lines. It is for how Federal dollars come 
back into the community. There is a whole host of reasons, and 
so maybe I should do a little cultural thing here.
    I can tell you coming up there were days when the person 
would come along and ask very personal questions. My father 
would not answer them because he felt that it was going to have 
some type of indication with the IRS, or somebody was going to 
come and start doing another investigation.
    I don't really believe in this wonderful America that we 
live in that things have changed so much as we still have not 
been able to reform immigration reform. We still need to reform 
our criminal justice system.
    So I know my time has run out, but I think we need to take 
a look at this. I think we are kidding ourselves if we think 
because there have been Federal studies that people are going 
to open their doors automatically to give the answers you want.
    Thank you, Vice Chair.
    Vice Chair Maloney. I want to thank all of my colleagues 
for participating today and our distinguished panel of expert 
testimony.
    And as we have heard this afternoon, businesses, 
researchers, policymakers, and communities across the country 
count on a fair and accurate Census to make a broad range of 
economic and strategic decisions. We must do everything 
possible to ensure that the 2020 Census is accurate.
    The record will remain open for 7 business days for any 
member who wishes to submit a statement or additional 
questions.
    This hearing is adjourned.
    Thank you all very much. Thank you.
    [Whereupon, at 3:25 p.m., the committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD

   Prepared Statement of Hon. Carolyn B. Maloney, Vice Chair, Joint 
                           Economic Committee
    I am pleased to hold this hearing examining the many economic uses 
of Census and other Federal data, particularly by U.S. businesses.
    Census data is the only source of objective and comprehensive data 
about the Nation's demographic characteristics down to the 
neighborhood-level.
    The decennial Census provides the foundation for other Federal 
surveys, including the American Community Survey. The ACS tracks 
social, demographic, economic and housing data, including educational 
attainment, income and earnings, employment status and housing value.
    Census data are an essential building block or benchmark for most 
nationally representative surveys--public and private, helping us to 
understand the economy, our workforce and opportunities for growth.
                  general business use of census data
    Businesses use Census data to make economic and strategic decisions 
that determine the flow of almost $4 trillion in annual private 
investment.
    They use it to decide where to locate or expand operations and 
where to open new stores and distribution centers. Even what products 
to sell in which stores. It affects where and how advertisers spend 
their dollars.
    When businesses plot their strategies, they look at Census data to 
understand the skills of the workforce and the characteristics of 
potential customers.
                 business examples--large corporations
    Let's take a few examples.
    David Kenny, the CEO of Nielsen, in a recent New York Times op-ed, 
described how businesses rely on Census data to make a broad range of 
strategic decisions.
    The Census is used to identify where, for example, to put power 
lines, cell towers and hospitals.
    Target told us that the U.S. Census is one of many resources that 
it uses to better understand the communities where they do business.
                  business examples--regional planning
    In the 7 Rivers region, which includes southwest Wisconsin, 
southeast Minnesota and northeast Iowa, hundreds of businesses and 
community leaders are using Census-based data to craft strategies to 
fill jobs and boost labor force participation.
    It starts with using data to understand who is unemployed, who has 
left the labor force, how much education have they attained. How do 
local workers compare to others nationwide? Are they younger, older, 
more likely to be male or female?
    The strategies that emerged from a careful analysis of the data are 
varied. One approach is to expand child care to make it more attractive 
for women with young children to enter the labor market.
    The 7 Rivers Alliance is just one example. Every day, companies 
across the country make decisions based on Census data to chart their 
future.
                             federal policy
    The decennial Census is used to apportion representation in the 
U.S. House of Representatives and to determine allocation of Federal 
funds. Hundreds of billions in Federal dollars and fair political 
representation are on the table.
    Where we build roads, bridges, schools and other core 
infrastructure is based on Federal data.
    How we target funds to address cancer, obesity and other health 
challenges depends on the Census.
                        it has been politicized
    Unfortunately, the 2020 Census has been politicized through the 
citizenship question. Immigrant communities, already skeptical of the 
Federal Government, are reluctant to take part in a survey they believe 
could be used against them, jeopardizing their status.
    A recent study at Harvard found that the citizenship question could 
lead to 6 million Hispanics missing from the count.
    That means Hispanics would be underrepresented in Congress and 
would receive less in Federal dollars.
    It means businesses would not get accurate data about the role 
Latinos play in the U.S. economy.
    It means the 2020 Census would not provide a fair and accurate 
count.
    The point of the Census is to get a full count of the population. 
Any proposal that would limit or discourage participation would run 
counter to this very objective.
    This would undermine the integrity of the Census data, inflicting 
substantial harm on businesses and others that depend on accurate data. 
And it would undermine the right of every American to be represented.
                               conclusion
    Getting the count wrong would be costly with far-reaching effects 
on nearly every segment of the population and on nearly every industry 
in our economy.
    We would be misallocating resources through misguided business 
investments and poorly targeted government expenditures.
    We would be using flawed data as the basis for making and 
evaluating decisions.
    And we would be doing this for a decade.
    Accurately counting all of our people should not be a partisan 
issue.
    Businesses, researchers, policymakers, State and local governments 
all count on the data that flows from the Census.
    I look forward to our witnesses' testimony.
                               __________
                               
Prepared Statement of Hon. Mike Lee, Chairman, Joint Economic Committee
    Good afternoon, and thank you for joining us for this hearing of 
the Joint Economic Committee. I want to thank Vice Chair Maloney for 
organizing a discussion about this very important series of topics.
    Today, Federal data and surveys provide the American people 
invaluable information about our Nation's society and our economy. But 
there are two key categories of information that are currently absent 
from our Federal surveys--categories that I'd like to highlight during 
today's hearing.
    First, our Federal surveys--and in particular, the American 
Community Survey (ACS) and Current Population Survey (CPS)--fail to 
include information about past involvement with the criminal justice 
system. In other words, they do not tell us whether someone has been 
convicted of a crime, been on probation or parole, or been 
incarcerated.
    Such data would be invaluable for understanding how much these 
experiences are a barrier to employment. For example, it would help us 
answer questions like:
    How many people out of the labor force are there because they have 
criminal records? And how does this vary in terms of geography and 
demographics?
    In our own research on prime-age men who are out of the labor 
force, the JEC's Social Capital Project has found that one-third of 
these men have been incarcerated. And there is further evidence to 
suggest that men who are not employed are more likely to have a 
criminal record than men who are.
    Indeed, we ought to have a fuller picture of this often-forgotten 
segment of our population and figure out what is necessary to help 
them. Our goal should be to make sure that our justice system is, in 
fact, just--that the punishment fits both the crime and the criminal, 
being neither too lenient nor too harsh--and to help these men and 
women re-enter society and become productive members of our families 
and communities.
    That's precisely why I've worked with many of my colleagues on 
legislation to this end, like the First Step Act, which was signed into 
law by the President this past December and included much-needed 
sentencing and prison reforms. Having more complete data on these 
topics in our Federal surveys would only further aid us in achieving 
these goals.
    Second, our surveys include limited information on social capital, 
or our associational life--which is arguably the most important factor 
for understanding our Nation's health and happiness.
    The Current Population Survey has included a few questions on 
social capital and associational life since 2002, but there is much 
that is lacking. For instance, it provides little information on trust 
or confidence in our institutions, especially local ones. It does not 
track loneliness, happiness, or the availability of emotional support; 
and it does not include information on the availability of public 
amenities like libraries, parks, and playgrounds, which have been shown 
to correlate with community involvement.
    The CPS could--and I think should--provide more information on the 
social interaction that takes place between families, friends, 
neighbors, congregants, and coworkers. And it could provide important 
details on the ways that technology hinders and helps social 
interaction.
    Furthermore, having more social capital information in these 
surveys would help all of us simply because, as research shows, strong 
social capital is conducive to finding and getting work.
    Learning this information would provide us some missing pieces to 
the puzzle, giving us a clearer picture of ways we can strengthen our 
economy and help our citizens be happy and productive members of our 
communities.
    I look forward to hearing our witnesses' insights on these topics 
today. Thank you.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Question for the Record for Dr. Reamer Submitted by Senator Klobuchar
    Census Bureau researchers reportedly recommended against adding a 
citizenship question to the 2020 Census, which they said would produce 
citizenship information that is less accurate and more expensive than 
existing government data.

    <bullet>  Doesn't the inclusion of a citizenship question 
compromise the accuracy of the Census by making certain residents less 
likely to respond?

    Census Bureau researchers say they expect that the inclusion of a 
citizenship question on the 2020 Census will compromise the accuracy of 
the total population count and the distribution of population 
characteristics (such as age, sex, and race).
    Sources:

    <bullet>  J. David Brown et al., ``Understanding the Quality of 
Alternative Citizenship Data Sources for the 2020 Census,'' U.S. Census 
Bureau, CES 18-38, August 2018.
    <bullet>  J. David, Brown, et al., ``Estimating the Potential 
Effects of Adding a Citizenship Question to the 2020 Census,'' IZA 
Discussion Papers 12087, Institute of Labor Economics (IZA), 2019.
    <bullet>  Mikelyn Meyers, Center for Survey Measurement, U.S. 
Census Bureau, November 2017
        Presentation: Respondent Confidentiality Concerns and Possible 
Effects on
        Response Rates and Data Quality for the 2020 Census
        Memorandum: Respondent Confidentiality Concerns

    Summary finding from the 2018 paper, p. 54:

        This paper's examination of several Census Bureau surveys with 
        and without citizenship questions suggests that households that 
        may contain noncitizens are more sensitive to the inclusion of 
        citizenship in the questionnaire than all-citizen households. 
        The implication is that adding a citizenship question to the 
        2020 Census would lead to lower self-response rates in 
        households potentially containing noncitizens, resulting in 
        more nonresponse follow-up (NRFU) fieldwork, more proxy 
        responses, and a lower-quality population count. (emphasis 
        added)

    On pp. 38-39 of the same paper, the authors estimate that 
households with a non-citizen would have a Census self-response rate 
5.8 percentage points less than households without a non-citizen. They 
further find that as ``the level of concern about using citizenship 
data for enforcement purposes may be very different in 2020 than it was 
in 2000 or 2010,'' the 5.8 percent differential is a conservative 
estimate--it may well be higher.
                               __________
                               
 Question for the Record for Ms. Bateman Submitted by Senator Klobuchar
    In 2016, we saw unprecedented foreign interference in our 
elections--including through social media platforms, where foreign 
agents sought to discourage voter participation in our country.

    <bullet>  How concerned are you about potential hacking or 
disinformation campaigns in advance of the 2020 Census in light of the 
fact that it will be one of the first Censuses performed online?

    Thank you for your question regarding potential cyberattacks or 
disinformation campaigns in advance of the 2020 Census.
    I am not a cyber-security expert, but as a frequent user of Census 
Bureau products the introduction of an online response form is a topic 
I am watching for this very reason. I know that this is a top issue for 
the Census Bureau, as they recognize the constantly evolving potential 
for threats to online material. I also know that the privacy 
restrictions placed on data via Title 13 are of paramount importance to 
career members of the Census Bureau.
    Due to this context, I rely on the reporting of the career Census 
Bureau staff, particularly through the 2020 Census Program Management 
Reviews. These reviews have been held quarterly since 2013. The August 
3, 2018, PMR had a session highlighting what the Census Bureau is doing 
in regards to cybersecurity. In his opening comments, Kevin Smith 
(Chief Information Officer) said:

        I want to stress that the protection of the data we collect is 
        the Census's highest priority, and I want to describe it is not 
        just the technology but the people and the processes we use in 
        our culture we go through to help make sure everyone is aware 
        of the importance of the data and takes action to protect it.

    Video for this PMR can be found here https://youtu.be/
pLZlt83rLZg?t=2085 and the accompanying slides can be accessed at this 
link: https://www2.census.gov/programs-surveys/decennial/2020/program-
management/pmr-materials/08-03-2018/pmr-cybersecurity-08-03-2018.pdf?#. 
Additional sessions on ``System Readiness'' touch on cyber security in 
the October 2018 and February 2019 PMRs.
    Additionally, we had the opportunity to host Census Bureau Director 
Dillingham at the Gardner Policy Institute on May 7. During his visit, 
he participated in a Newsmaker Breakfast, speaking to the public about 
the 2020 Census. In his remarks, he mentioned that the Census Bureau is 
working closely with experts in and out of government to stress test 
their system and create a platform that is nimble and could adjust to 
threats. He mentioned that the Census Bureau is working with the 
largest IT firms in the Nation to address the issue. (Topic begins 
around 49:30--https://www.facebook.com/gardnerpolicyinstitute/videos/
850462068623931/)
    Regarding disinformation, the Census Bureau has mentioned that this 
will be addressed in their forthcoming communications plans. The 2020 
Census communication efforts in Utah are being constructed with the 
consideration that digital campaigns to create confusion may very well 
be present. Additionally, the State Data Center network is constantly 
watching for things that might confuse people regarding the decennial 
count. The network is active and engaged. This slightly more grassroots 
space for states allows space for clear, connected narratives to 
develop and be disseminated more quickly than through formal Census 
Bureau processes.
    I know the reintroduction of paper forms for voting is proposed in 
some communities to avoid cyber interference. Although online response 
is getting all the press, there are alternatives. If communities feel 
unsafe or uncertain utilizing the online response platform, paper forms 
and over-the-phone response are options for response in 2020.
    Thank you for the opportunity to comment on this topic.
  

                                  [all]
</pre></body></html>
